LT
COCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923,
1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850
No.
ISMAEL LECHUGA,
Petitioner,
Vv.
UNITED STATES OF AMERICA,
Respondent.

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 4991 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 24th day of November, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

Konse. 0. Dosa

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
Notary Public

My Comm. Exp. September 5, 2023

Oudeaw-h, Gh Le

Affiant 40047
